:J

f

No.

IN THE
SUPREME COURT OF THE UNITED STATES
WASHINGTON DISTRICT OF CLOLUMBIA

n

rptepiiLp

- Li id xJq L'J I, ViH Li

MOHAMMAD SOHAIL SALEEM

PETITIONER

VS.
SUPERINTENDENT S.C.I., ROCKVIEW, et.at.,

RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS, For the Third District

PETITION FOR WRIT OF CERTIORARI

MOHAMMAD SOHAIL SALEEM, MA-9795
S.C.I., CAMP HILL, BOX 200
CAMP HILL, PA 17001

I

FILED
MAY 03 2021

•f

QUESTION(S) PRESENTED

I.

Did tiie United States Court of Appeals, for the Third District err in
denying Mr. Saleem's Petition for Re-Hearing, when such an abuse of
discretion when it involves the results of partiality, prejudice, bias or
ill-will, as shown by the evidence of the records.

Proposed Answer in The Positive

II.

Did the United States Court of Appeals, fop the Third Circuit, err in
denying Mr. Saleem,s Motion for Re-Hearing, when such denial is direct
violation of Due Process Rights and Violation of his Constitutional rights
of the United States and Pennsylvania, and such relief is available
because the Exception is Inapplicable.

Proposed Answer in The Positive

i .*

LIST OF PARTIES

[X] All the parties appear in the caption of the case of the cover page.

RELATED CASES

Saleem V. Superintendent S.C.I., Rockview, et.al.,
U.S. District Court for the Middle District of Pennsylvania
JUDGEMENT ENTERED ON ;
Motion for Re-Hearing ;

December 11, 2019
September 8, 2020

Saleem v. Superintendent S.C.I., Rockview, et. al.,
U.S. Court of Appeals for the Third District
JUDGEMENT ENTERED ON ;

December 05, 2020

i

/U

ll#

TABLE OF CONTENTS

TABLE OF AUTHORITIES CITED
EXHIBIT OF THE PETITIONER

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASON FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDIES

APPENDIX A

Decision of U.S. Court of Appeals

T*U a

APPENDIX B

Decision of District Courts

Jc,4tl 33 Pa&A

APPENDIX C

Decision of U.S. Court of Appeals to Re-Hearing Motion

APPENDIX D

Decision of District Courts to Re-Hearing Motion

^V

I

j

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Brady v. Maryland, 373 U.S. 83 (1963)
United States v. Mauro, 436 U.S. 340 98 S. Ct. 1834,
56 L. Ed. 2d 329 (1978)
Ruggiano v. Reish, 307 F.3d 121, 125 n. 1 (3d Cir. 2002)
United States v. Adkin, 577 F.2d 675 (9th Cir. 1978)
United States v. Ruiz, 536 U.S. 622 (2002)
Weeks v. Fleming, 301 F.3d 1175, 1180 (10th Cir 2002).

STATUTES AND RULES
U.S. Constitution Amendment VIII
U.S. Constitution Amendment XEV
Federal Rule 26 (a)(1)

OTHERS

^Lack's Law Dictionary, 4th Ed., at 675)

V

EXHIBITS OF THE PETITIONER

Please find below a list of the Exhibits that used by the Petitioner to
support his claims and also part of this Petition.

INDEX OF EXHIBITS

EXHIBIT "A" Note of Testimony, Plea Hearing, April 21, 2015; Page 2;
EXHIBIT "B" Writ of Habeas Corpus Ad Prosequendum
EXHIBIT "C" N.T. PCRA Hearing, March 24, 2016, Page 39
EXHIBIT "D" Letter from Attorney David R. Warner
EXHIBIT "E" Immigration Judge's Order — (Deportation Order)
EXHIBIT "F" Receipt for Passport
EXHIBIT "G" Receipt for money (cash)
EXHIBIT "H" E-mail from Attorney David Warner

BcUikti/a

do A hi A s>

VI

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
IXi For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_d.
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

&

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
IXI is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[yj For cases from federal courts:
The date_on/which the United States Court of Appeals decided my case
was _ &rZ.o
^ ' j '
[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
S - S-O
and a copy of the
order denying rehearing appears at Appendix____
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------- --------- ----------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. CONSTITUTION AMENDMENT VIII

Due Process Clause
Mr. Saleem's Constitutional rights, under the Due Process Clause, were
violated when, a false Writ of Habeas Corpus Ad Prosequendum (request for
temporary custody), was filed by the Commonwealth of Pennsylvania, and then
transfers Mr. Saleem to D.O.C.
Even though, if it is assume for a minute, that The Writ was "NOT FALSE",
Still Mr. Saleem should be transfer back to ICE custody after alleged hearing.
Lack of jurisdiction, in both cases, caused Mr. Saleem "the unnecessary and
wanton infection of pain".

Liberty
Commonwealth of Pennsylvania was with actual knowledge of "Deliberate
indifference to the liberty" of Mr. Saleem, when lied to the trial attorney, and
then Mr. Saleem's wife in regard to nullity Writ. Commonwealth of Pennsylvania,
removed Mr.
immidiate

Saleem from original terms of confinement,

deportation"

that

the

amount

to

deprivation

"No Objection to
of

liberty,

by

transferring to D.O.C. and involuntary commitment to the state prison. These
actions of Commonwealth of Pennsylvania, make Mr. Saleem spend more time in
prison, makes Mr. Saleem ineligible for immediate deportation constitute due
process protection and derivation of liberty interest. Since Mr. Saleem do have
ability

to be deported

to Pakistan immediately also invoke due process

protection.

3

U.S. CONSTITUTIONAL AMENDMENT XIV

Equal Protection of the Law,
Equal Protection of the Law, forbids a state to "deny any person within
jurisdiction the equal protection of law";

The Fifth amendment requires the

federal government to obey the same equal protection standards as the states.
Equal protection of the law was was violated, when Judge Charles,
demonstrate bias against Mr. Saleem, on the time of sentencing, because of his
nationality, race, ethnicity and/or religion. The continents revealed more of a
prejudice towards Pakistan, Islam and against Mr. Saleem, in particular.

Initial Discovery Package
Further Mr. Saleem's Constitutional right was violated, when a copy of
surveillance camera video was never given to Mr. Saleem. This video contains
evidence of innocence and would exonerate Mr. Saleem from the alleged crime.
Federal Rule 26 (a)(1), provide for "initial disclosures" that the parties are
supposed to make automatically, without a request.

STATEMENT OF THE CASE

Mohammad Sohail Saleera,

('Hr. Salesn"), is filing this Petition of

Certiorari, which stems from the following relevant procedural ;history of the
involved case captions;

V

On March 2, 2015, Mr. Saleem was arrested by ICE, in connection with
pending charges in Lebanon County.
On April 21, 2015, Mr. Saleem, appeared in front of Honorable Robert J.
Eby, and entered a Negociated Guilty Plea. Mr. Saleem agreed to indecent assault
and harassment, with the agreement of "Ihe Commonwealth has no Objection to
immediate deportation in your particular circumstances?
(see Exhibit "A"; N.T. April 21, 2015, Page 2; Lines 23-25).
On June 3, 2015, trial court sentenced Mr. Saleem to an aggregate prison
term of Twenty One (21) months to Ten (10) years. Very next day, on June 4,
2015, Mr. Saleem, was handed over to Federal Government (ICE) and Jurisdiction
was transferred back to ICE. the purpose of immediate deportation, as part of
pleas agreement.
On or about June 10, 2015, a Writ of Habeas Corpus As Prosequendum (a
written request for temporary custody), was signed/granted by the Honorable John
C. Tylwalk, after a motion of the District Attorney. Information provided for
this Writ was false. There was no scheduled Court appearance on June 16, 2015,
contrary to what it said in the Writ.
(see Exhibit "B").
On September 1, 2015, Mr. Saleem filed a counseled PCRA petition and
argued that he plead guilty to the charges upon a promise that "The Commonwealth
has no objection to immediate deportation". PCRA petition was denied, finding
that "There is no evidence in this case that anyone at the District Attorney's

5

Office affirmatively took steps and prevent deportation". And Lower Court
further opinioned that "the federal government choose not to deport Mr. Saleem"
(See Exhibit "C" N.T. PCRA, March 24, 2016, Page 39; Lines 13-14 and line 16)
Mr.

Saleem

filed an appeal

to

the Pennsylvania Superior Court,

Commonwealth v. Saleem, 2017 WL 1223851. One March 28, 2017, the Pennsylvania
Superior Court affirmed the PCRA court's decision.
On April 06 , 2017, MR. Saleem filed a second PCRA petition. Raising the
issue of Brady Violation, claiming that there is a Digital Video Recorder
("DVR"), which contains video date from 7 cameras for 15-30 days, from the place
of allegation. This DVR was confiscated by the Lebanon City Police and Mr.
Saleem was never given access to this video. Mr. Saleem claims that this video
has exculpatory evidences and would exonerate him in the allegations. On June
16, 2017, the PCRA court denied the petition as untimely. On May 1, 2018, the
Superior Court found that Mr. Saleem did not meet his burden of proving that his
untimely PCRA petition fit within any of the three exceptions of the PCRA's
time-bar, and affirmed Lowers Courts's order.
Multiple post-conviction proceedings were commenced, yet are not relevant
to the instant matter.
On June 26, 2017, Mr. Saleem filed federal habeas potions. After filing
briefs from the the parties, On December 11, 2019, this writ of habeas corpus
was denied by the Honorable Robert D. Mariani, United States District Judge. Mr.
Saleem file Notice of Appeal and Motion for Re-Hearing on the same day. Motion
for Re-hearing was denied on September 8 , 2020, due to lack of jurisdiction. On
August 20, 2020, United States Courts of Appeal, issued a case dispositive order
and entered Judgement. Mr. Saleem file petition for re-hearing, which was denied
on December 7, 2020.

6

REASONS FOR GRANTING THE PETITION
REASON NO. 1. FAULTY WRIT OF HABEAS CORPUS AD PROSEQUENDUM
The Writ of Habeas Corpus Ad Prosequendum ("written request for temporary
borrowing ) was based upon false information that there is a court appearance
scheduled on June 16, 2015. Honorable John C. Tylwalk sign this Writ without
verifying that if there is any court hearing for the June 16, 2015?
Mr. Saleem contends that Commonwealth has violate Mr. Saleen's due process
and Constitutional right when Temporary Jurisdiction over Mr. Saleem was taken
over by filing a false Writ;

(See Exhibit "B")

Yet, as shown supra, the faulty Writ of Habeas Corpus, is violation of Mr.
Saleem's due process rights, fundamental fairness, and Constitutional rights on
the part of Commonwealth. Such filing is voidable Whether it filed by the
District Attorney or an agent of Commonwealth.
REASON NO. 2. FALSE INFORMATION TO TRIAL ATTORNEY
( 0° June 10 > 2015, around same day or time when the Writ for temporary
custody was filed, District Attorney's Office contacted trial attorney Mr.
Warner, and try to cover-up the falsely Writ, that somehow a congressman has
involved and ICE is reconsidering Mr. Saleem's deportation status. After false
information from the District Attorney's Office, Attorney Warner wrote the a
letter addressing to Mr. Saleem on the same day. The information was given to
Mr. Warner by the District Attorney's Office was also false or simply was coverup for the falsely Writ.
(See Exhibit "D" and Exhibit "B" for comparison purpose).
REASON NO. 3. WRIT OF HABEAS CORPUS IS A "TEMPORARY BORROWING"
Writ of Habeas Corpus Ad Prosequendum constituting "written request for
temporary custody" within the meaning of Agreement; United States v. Mauro, 436
U.S. 340. 98 S. Ct. 1834, 56 L. Ed. 2d 329 (1978). Habeas Writ constitutes

7

"written request for temporary custody" within the meaning of Article IV of
Interstate Agreement on Detainers Act.
United States v. Adkin, 577 F.2d 675 (9th Cir. 1978)
The sovereign that the first arrests the individual has primary custody
over the individual until custody is relinquished.
See Weekes v. Fleming, 301 F.3d 1175, 1180 (10th Cir 2002).
In the instant case, federal authorities (ICE) had primary custody over
Mr. Saleem. Writ of Habeas Corpus Ad Prosequendum writs do not constitute a
transfer of custody.
See Ruggiano v. Reish, 307 F.3d 121, 125 n. 1 (3d Cir. 2002).

The second sovereign - in this case, the Commonwealth of Pennsylvania - was
therefore merely ''borrowing" Mr. Saleem from the Federal Authorities (ICE) for
the solely purpose of scheduled court appearance. Mr. Saleem was not in state
(Commonwealth) custody but he was on bail after got convicted with the alleged
crime in 2014. Mr. Saleem stays on bail from Commonwealth even after he was
arrested by the ICE on March 2, 2015, and Primary Jurisdiction over Mr. Saleem
was taken over by the ICE, on March 2, 2015, as well. Mr. Saleem had brought
back to Lebanon County few time, but only pursuant to Ad Prosequendum (temporary
borrowing), and every time was sent back to ICE custody as per Interstate
Agreement on Detainer Act.
primary jurisdiction always stays with federal
remain with federal
and Primary jurisdiction should

In instant matter,
authorities (ICE),

authorities (ICE), until ICE relinquish custody of Mr. Saleem.
i

After

signing Negociated Plea Agreement,

with the agreement

that

"Commonwealth has no objection to immediate deportation", on May 18, 2015,
Immigration Judge, Honorable Walter A. Durling, GRANT the application for

voluntary departure;

(See Exhibit "E")

Moreover, the Commonwealth of Pennsylvania court expressly accepted the
plea, with agreement of "No Objection to immediate Deportation". Based upon the
plea order of Commonwealth court, Immigration Judge grant the deportation. Mr.
Saleem's passport was in custody of Commonwealth, in connection with alleged
conviction from 2014, and stays with Commonwealth of Pennsylvania. It was given
to ICE agent on May 1, 2015, after the Plea Agreement of "No Objection to
Dimidiate Deportation" was singed and accepted by the Commonwealth. Mark
Szalczyk, (Deportation Office ICE) personally picked up the passport as per plea
agreement and for the purpose of immediate Deportation;

(See Exhibit "F")

Further, air line ticket was purchased, two U.S Marshals were assigned to
escort Mr. Saleem back to Pakistan. If this Writ (for temporary custody) was not
filed, Mr. Saleem was going to be deported in the first half of June of 2015.
On June 10, 2015, Custody of Mr. Saleem was obtained by the Commonwealth
of Pennsylvania, pursuant to a writ of habeas corpus ad prosequendum, (a
temporary borrowing), which indicates that upon conclusion of the alleged
proceeding (on June 16, 2015), he was to be returned to the ICE custody. This
Writ has long been recognized at the normal means by which Commonwealth Courts
obtain custody of an accused when he is in the custody of another jurisdiction.
When an accused is transferred pursuant to a Writ of Habeas Corpus Ad
Prosequendum, he is consider to be "on loan" to the state courts, so that the
sending federal authorities (ICE)'s jurisdiction over the accused continues
uninterruptedly. Failure to send back does not alter that "borrowed" status.
Even though if it is assumed for a minute that the Writ was not based upon
false information, with the principles shown supra, Mr. Saleem contends that the
Commonwealth of Pennsylvania abuse its discretion by failing to send Mr. Saleem
back to ICE custody, after the alleged court appearance.

°l

In the instant case the Commonwealth of Pennsylvania only borrowed Mr.
Saleem to appear for alleged court hearing of June 16, 2015. While the
Commonwealth fail to return Mr. Saleem after the alleged date, Mr. Saleem's due
process and constitutional rights for both United States and Pennsylvania.

REASON NO. 4 FALSE INFORMATION BY THE DISTRICT ATIQRNEYMS OFFICE
TO MR. SALEEM'*S WIFE
On June 8, 2015, after communication with the ICE Agent / Immigration
Office, Mr. Saleem's wife drop off his luggage and money, since immigration
informed that Mr. Saleem is leaving in next few days.;

(See Exhibit "G" cash

receipt).
But unfortunately, on June 10, 2015, District Attorney's Office filed the
Writ of Habeas Corpus Ad Prosequendum, and things turns other way around.
Sometimes after June 10, 2015, Mr. Saleem's wife called District Attorney's
Office and inquired that, "why Mr. Saleem is back in Lebanon County, while he
was going to be deported?"

Mr. Saleem's wife further told District Attorney's

Office that he must have leave soon since, her mother (Mr. Saleem's mother-inlaw), is on death-bed. And her son also have severe autism, and all the family
waiting for deportation. Rather than listening to Mr. Saleem's family hardship,
District Attorney's Office choose not to re-consider the wrong doings. District
Attorney's Office prefer to lie and present an different story saying that "Mr.
Saleem is in Lebanon County to sign some paper work and needing a parole
number."

’

'

Again Commonwealth of Pennsylvania repeatedly, has violated Mr. Saleem,
due process and constitutional right and has interfered in the immediate
deportation, resulting almost for six (6) years, of delay in the immediate
deportation.

!0

REASON NO. 5

FALSE INFORMATION BY THE COURT

On March 24, 2016, on the time of PCRA hearing, when the matter of Plea
Agreement "Commonwealth Has No Objection to Immediate Deportation" was brought
in to attention of Honorable Bradford H. Charles, and question arises that "who
actually involve in delaying of immidiate deportation". Honorable Bradford H.
Charles opinion another baseless theory, stating that, "There is no evidence in
this case that any one at the District Attorney's Office affirmatively took
steps to prevent deportation."; adding more to the opinion that; "I don't know
why federal government chose not to deport him. I don't know but they did. That
is their choice". It could be Honorable Court's ignorance of the facts or was
actually intention to cover-up the wrong doing of District Attorney's Office
and/or Commonwealth of Pennsylvania.

" '

Facts of the matter, are other wise, there is no evidence that any one
from federal gonernment has involved in delaying the deportation and no evidence
was provided by the Honorable Court, that who at the federal government actually
was involved?

Further, Honorable Court ignore the facts that Writ of Habeas

Corpus Ad Prosequendum was filed on June 10, 2015, by District Attorney's Office
and signed by the Honorable John C. Tylwalk.
(See Exhibit "B" The Writ and also See Exhibit "C" N.T. PCRA hearing, March 24,
2016; Page 39; Lines 5-24)
On the time of PCRA hearing, Jared Hinsey, Assistant District Attorney and
Ms. Megan Ryland-Tabber, Assistant District Attorney were also present in the
court room. Both of the officials was well aware of, that District Attorney's
Office has filed the Writ of Habeas Corpus Ad Prosequendum on June 10, 2015. But
unfortunately both of them under oath, did not carry their duty to protect and
promote the law. and patterned together to slew Mr. Saleem's constitutional and
due process rights, resulting delay in deportation for almost six (6) years.

I/

REASON NO. 6

FAILING TO PROVIDE VIDEO EVIDENCES

On March 21, 2014, when Mr. Saleem was arrested, Lebanon City Police also
confiscated a Digital Video Recorder, ("DVR"), which contains video data from
the store location from seven (7) cameras, for (15-30) days. This Surveillance
Camera Video or DVR contains the evidence of innocence. Mr. Saleem informed
Attorney David Warner, trial attorney about the presence of the video evidences
(DVR), and further explained that this video contains expulatory data and would
exonerate Mr. Saleem in the alleged crime. After many verbal and written
requests from Mr. Saleem, this DVR was not provided to him as part of his
initial discovery package. On or about December 20, 2014, Attorney Warner send
an E-mail to Mr. Saleem stating that District Attorney's Office can not make a
copy of the video; (Sea Exhibit "H")
Mr.

Saleem contends

that District Attorney's Office had make false

statement that "they can't copy the hard drive". Facts of the matter is, Mr.
Saleem not only had copy from the similar DVR system from his another store
location, which was given to Mr. Warner and also was docketed by Mr. Saleem's
wife on April 21, 2016, but also Mr. Saleem himself had copy for State Police
more than twice, when his store was robbed. Top of that Mr. Saleem was called
from Lebanon City Police on another occasion, to review and copy video from a
similar system from different store location (Verizon wireless store on Quentin
Road, Lebanon City.
Ergo, it is established that District Attorney's Office abuse discretion
by failing to make a copy of the hard drive. Mr. Saleem contends that the video
teems with evidence that refutes the evidentiary testimony given by alleged
victim in the matter. It is Mr. Saleem's position said evidence contained within
the video, show that Mr. Saleem was not present in the areas that were testified
by the alleged victim. Such lack of Mr. Saleems

o

lA

presence shows a clear and

convincing proof of Mr. Saleem's innocence.
With the principle supra in mind, the General Assembly intended that an
innocent individual should never be allowed to serve time for a "[crime] they
did not commit." Consequently, it is the position of Mr. Saleem that Digital
Video Recorder video should be reviewed by the judicial officer under the
promise of the actual innocence / exculpatory evidence provisions, for Mr.
Saleem to applicably prove his innocence of this crime. Black's Lav/ Dictionary
defines exculpatory evidence, as evidence the "[c]lear[s] or tend[s] to clear
from alleged fault or guilt"; (Black's Law Dictionary, 4th Ed., at 675).
In the instant matter, .Mr. Saleem continue to request the review, and/or
release of the video evidence through out course of this proceeding, to date.
Such evidence will show that Mr. Saleem did not break into the bathroom, nor did
he follow the alleged victim into the bathroom. Furthermore, Mr. Saleem
presented evidence to the Commonwealth Court in the form of
("DVD")

on April 21,

2016,

Digital Video Disc

this surveillance camera video will directly

contradict the testimony of the alleged victim. Such testimony was given under
oath on the time of Preliminary hearing.
(Please see N.T. Preliminary Hearing; April 3, 2014; 20:1-25 & 21:1-11)
However,

through the extensive request,

continuously filings of the

motions to the Commonwealth Court, and many Request to right to Know Law
("RTKL"), the DVR, have never been produced. It is the position of the Court,
that Mr. Saleem does not posses the rights to have a copy of the video even
though the video contains the evidence of his innocence.
Such "extraordinary circumstances" are out lined here, by the facts that
the evidence is alleged to be exculpatory. However, it is position of the Court
that the evidence has no value, simply because Mr. Saleem knew the existance.
This is flawed logic; just because something is known to exit doesn't mean that

/

13

the contents are fully known.
This is linked to the gold bars housed at Fort Knox, when the whereabouts
of the said gold are unknown. Just because the public consensus states that
there is not gold at Fort Knox, does not mean that this contention is correct.
Mr. Saleera has never viewed the "contents" of the video, yet knows from, his
location within said video, he is factually innocence of the alleged acts.
However, had Mr. Salean known the "jurisdictional trap" the Pennsylvania
Courts would catch him in, he would have asserted his actual innocence, allowing
him to continue as a law abiding citizen.
In the instant matter, Mr. Salean has repeatedly requested access to the
video that is claimed to have exculpatory evidence proving Mr. Salean's factual
innocence of the crime. The facts that Mr. Salean knew said evidence existed is
irrelevant due to the fact that within United States v. Ruiz, 536 U.S. 622
(2002) that the prosecutor had recognized a continuing duty pursuant to Brady v.
Marland, 373 U.S. 83 (1963), to disclose information regarding the defendant's
factual innocence.
Instead the prosecutor and now the Court has knowingly withheld evidence
that could have proven Mr. Salean's factual innocence, allowing the guilty plea
to dissolve. The Commonwealth, of Pennsylvania abuse discretion, bias, and
partiality, based upon the principle fact of retaining a conviction in the
matter.

IH

/

REASON NO. 7.

EXTRAORDINARY AND COMPELLING REASONS EXIST

'/

For Mr. Saleem, nothing could be more nothing extraordinary and compelling
than the following;
a. Comnonwealth of Pennsylvania get temporary custody by a nullity Writ.
Then District Attorney's Office abuse discretion and provide false information
that a congressman and ICE is reconsidering the deportation.
b.

Even though if it is assumed that the Writ was "NOT FALSE", still

Commonwealth owed a duty to return Mr. Saleem back to ICE custody.
d.

District Attorney's Office didn't stop there, again false information

was provided to Mr. Saleem's wife, that Mr. Saleem is back to sign paper work
and need parole number.
d.

Honorable Bradford H. Charles also contribute in a baseless opinion

and two false theories that there is no evidence that any one at District
Attorney's Office affirmatively took steps to prevent deportation and it was
federal government who choose not to deport Mr. Saleem.
e.

Comes to the exculpatory evidence, District Attorney's Office and then

Court, again abuse discretion when blatantly withheld video evidence of the
innocence.
Finally, none of these reasons alone is extraordinary and compelling.
Taken together, however they constitute reasons for why the Honorable Court
should GRANT Petition for Writ of Certiorari, beyond what is usual, customary,
regular, or common, "and reasons so great that irreparable harm or injustice
would result if [the relief] in not [granted]."

WHEREFORE, for the reasons, supra, Mr. Mohammad Sohail Saleem, Pro-Se,
Petitioner, prays this Honorable Court vacate the order of lower courts, remand
to the trial Court for a new trial, and/or other applicable relief this
Honorable Court deems appropiate.

CONCLUSION

Mr. Salean's actual innocence, along with a slew of constitutional errors,
invalidate the plea agreement made with the Commonwealth of Pennsylvania, where
the District Attorney's Office then Court blatantly withheld the Digital Video
Recorder which contains evidence of innocaice.

The surveillance camera video

evidence will show unequivocally that Mr. Saleem is factually innocent of these
heinous crimes.
"Society views the conviction of an innocent person as perhaps the roost
grievous mistake our judicial system can commit".
■

Abuse of discretion furthered, when the Commonwealth of Pennsylvania
itself brutally savage to already admitted plea agreement, when the District
Attorney's Office and then the Court intentionally interfere into the immediate
deportation process, by filling a false Writ of Habeas Corpus Ad Prosequendum,
(request for temporary borrowing) and did not send Mr. Saleem back to ICE
custody.

WHEREFORE, for these reasons and other elaborated here, Mr. Mohammad
Sohail Saleem, Pro-Se, Petitioner, prays this Honorable Court should GRANT,
Petition For Writ of Certiorari, since the "extraordinary and compelling"
reasons has been established.

Respectfully Submitted By

, 2021
S.C.I., Camp Hill, Box 200
Camp Hill, PA 17001

fi

/

